Case: 20-40475

Document: 00515900306

Page: 1

Date Filed: 06/15/2021

tHmteb States Court of glppeate
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
March 31,2021

No. 20-40475

Lyle W. Cayce
Clerk

Mandell Rhodes, Jr.,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6;18-CV-173

ORDER:
Mandell Rhodes, Jr., Texas Prisoner 307498, seeks a certificate of
appealability (“COA”) from the denial of his Section 2254(d) application.
He claims that the forfeiture of good-time credits that resulted from the
revocation of parole violated the DoubleJeopardy Clause of the Constitution.
The district court rejected his argument, denied his application, then also
denied a COA.
Rhodes was sentenced in 1980, incarcerated until he was released on
parole in 2015, then had his parole revoked in 2017. While he was
incarcerated, Texas statutes regarding good-time credits were revised

Certified as a true copy and issued
as the mandate on Juit 15, 2021
Attest:

dwk W. CumOl.

Clerk, U.S. dkurt of Appeals, Fifth Circuit

Xa-

Case: 20-40475

Document: 00515900306

Page: 2

Date Filed: 06/15/2021

No. 20-40475

multiple times. See.} e.g, Act of May 26,1989, 71st Leg., R.S., ch. 212. The
district court applied Texas’s current statutory provisions in forfeiting
Rhodes’s good-time credit when his parole was revoked. See Tex. Gov’t
Code § 498.003(a). The following statutory language has been in effect
since at least three years prior to Rhodes’s 1980 sentencing: “Good conduct
time is a privilege and not a right. Consequently, if during the actual term of
imprisonment in the department, an inmate commits an offense or violates a
rule of the department, all or any part of his accrued good conduct time may
be forfeited by the director.” Id.\ cf. Act ofJune 10,1977,65th Leg., R.S., ch.
347, § 3.
Addressing a similar argument, this court has previously rejected that
requiring a prisoner “to serve the entire portion remaining on his sentence
after his parole is revoked violates the multiple punishments prong of the
Double Jeopardy Clause.” Morrison v. Johnson, 106 F.3d 127,129 n.l (5th
Cir. 1997).
IT IS ORDERED that the Appellant’s motion to proceed in forma
pauperis is GRANTED.
IT IS FURTHER ORDERED that Appellant’s motion for certificate
of appealability is DENIED.

/s/ Leslie H. Southwick
Leslie H. Southwick
United States Circuit Judge

2

3o

Case: 20-40475

RESTRICTED Document: 00515864097

Page: 1

Date Filed: 05/17/2021

tHmteti States Court of appeals
for tfje jf tftf) Circuit
No. 20-40475
Mandell Rhodes, Jr.,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:18-CV-173

Before Dennis, Southwick, and Engelhardt, Circuit Judges.
Per Curiam:
Mandell Rhodes,Jr., Texas Prisoner 307498, seeks reconsideration of
the March 31, 2021 denial of his certificate of appealability (“COA”).
Rhodes urges that the court failed to consider his claim that the district court
“misapplied and unlawfully utilized the provision in Texas Government
CodeS 498.003(g).”

We interpret Rhodes's argument as making the following points.
First, he relies on the language in the 1983 amendment of the good-conduct­
time provision stating that “[t]he change in the law made by this Act applies

7^

Case: 6:18-cv-00173-RAS-JDL

Document #: 32-1

Date Filed: 07/02/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
MANDELL RHODES, JR., #307498

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cvl73

FINAL JUDGMENT
The Court having considered Petitioner’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Petitioner’s federal habeas petition is DISMISSED
with prejudice, and Petitioner is DENIED a certificate of appealability sua sponte.
SIGNED this the 2nd day of July, 2020.

\1
RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

1

u

Case: 6:18-cv-00173-RAS-JDL

Document #: 31-1

Date Filed: 07/02/2020

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
MANDELL RHODES, JR., #307498

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cvl73

ORDER OF DISMISSAL
Petitioner Mandell Rhodes, Jr., proceeding pro se and in forma pauperis, filed this petition
for writ of habeas corpus under 28 U.S.C. § 2254 challenging the denial or forfeiture of good
conduct credits. The cause of action was referred to United States Magistrate Judge, the Honorable
John D. Love, for findings of fact, conclusions of law, and recommendations for the disposition of
the petition.
On March 10, 2020, Judge Love issued a Report, (Dkt. #26), recommending that
Petitioner’s habeas petition be dismissed with prejudice and that Petitioner be denied a certificate
of appealability sua sponte. A copy of this Report was sent to Petitioner at his address with an
acknowledgment card. The docket reflects that Petitioner received a copy of this Report on
March 26, 202Q, and Petitioner has filed timely objections, (Dkt. #30).
The Court has conducted a careful de novo review of the record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(l) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the Court has
determined that the Report of the United States Magistrate Judge is correct and Petitioner’s
objections are without merit. Accordingly, it is

1

Case: 6:18-cv-00173-RAS-JDL

Document #: 31-1

Date Filed: 07/02/2020

Page 2 of 2

ORDERED that the Report and Recommendation of the United States Magistrate Judge,
(Dkt. #26), is ADOPTED as the opinion of the Court. Petitioner’s objections, (Dkt. #30), are
OVERRULED. Further, it is
ORDERED that Petitioner’s federal habeas petition is DISMISSED with prejudice.
Petitioner is DENIED a certificate of appealability sua sponte. Finally, it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED:
SIGNED this the 2nd day of July, 2020.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

2

10 ay

Case: 6:18-cv-00173-RAS-JDL

Document#: 26-1

Date Filed: 03/10/2020

Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
MANDELL RHODES, JR., #307498

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cvl73

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Petitioner Mandell Rhodes, Jr., proceeding pro se and in forma pauperis, filed this petition
for writ of habeas corpus under 28 U.S.C. § 2254 challenging the denial or forfeiture of good
conduct credits. The cause of action was referred to the undersigned United States Magistrate
Judge for findings of fact, conclusions of law, and recommendations for the disposition of the
petition.
I. Procedural Background
In 1980, Rhodes was convicted after a jury trial for the offense of aggravated rape and was
sentenced to fifty years’ imprisonment. Rhodes was released onto parole in January 15, 2015.
While on parole, Rhodes was convicted of the offense of “invasive visual recording,” a state jail
i

felony1 and-was sentenced id two -years" imprisonment. A pre-revocation warrant was executed
by the parole division in January 2017. His parole was then revoked in October 2017, which forms
the basis for Petitioner’s habeas petition.
Rhodes filed a state application for a writ of habeas corpus in November 2017, which was
denied without a written order. In that state habeas application, Rhodes challenged the forfeiture
of his good time credits.

1

da\ ».

Case: 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 2 of 8

II. Rhodes’ Federal Petition and Accompanying Memorandum of Law
Rhodes states the following in his federal habeas petition:
TDCJ unlawfully forfeited good conduct time earned by Petitioner under Senate Bill 640__
Acts 1983, 68th TX. Leg., R.S., Ch. 375, P. 2045, which pursuant to the intent of the 68th
Legislature in Senate Bill 640 lawfully reduced his sentence. Such forfeiture violated the
double jeopardy clause of the U.S. Constitution.
- Between August 14, 2006 and January 13, 2015, Petitioner earned 16 years, 3 months, and
7 days [of] good conduct time pursuant to Senate Bill 640 Acts 1983, 68th Leg., R.S.,
Ch, 375, p, 2045; an act which included language showing tljat it was .the.JNXENT of the68th Legislature that such good conduct time was to be “earned by a'prisoner toward
reduction of a sentence.” See attachment “A.” On Jan. 13, 2015, Petitioner was released to
parole and on Nov. 7, 2017, he was returned to TDCJ after revocation of parole..Upon
revocation TDCJ forfeited petitioner’s 16 years, 3 months, and 7 days Senate Bill 640 good
conduct time credits. This forfeiture violated the Double Jeopardy Clause of the U.S.
Constitution.
'
k
(Dkt. #1, pg. 6). In his memorandum of law, Petitioner raises the exact arguments and issues.
III. Respondent’s Answer
InTts answer, Respondent maintains that Rhodes does not have a protected liberty interest
in the restoration of his forfeited credits for good conduct time. Moreover, Respondent argues that
the double jeopardy clause is not implicated in a challenge regarding the forfeiture of good conduct
credits.
2'

IV. Petitioner Rhodes’ Reply
.

-T

' ■

' .

’

-

'

"

In his ieply, (Dkt. #20), Rhodes insists that the forfeiture of his sixteen years of good
%

conduct time

such time that reduced his sentence—violated the principles against double

jeopardy. He also asserts that Respondent is attempting to “distract” and “draw this court’s
attention away from Senate Bill 640” and its language.
V. Legal Standards
The role of federal courts in reviewing habeas petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
2

Case: 6:l£-cv-00173-RAS-JDL
t

Document #: 26-1

Date Filed: 03/10/2020

Page 3 of 8

federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.5”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court5' to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
/

!

Federal habeas, review of state court proceedings is governed by the Antiterrorism and '

Effect i ve Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which imposed several habeas
corpus reforms, a petitioner who is in custody “pursuant to the judgment of a State court” is not
;
entitled to federal habeas relief with respect to any claim that w.as adjudicated on the merits in
..
State court proceedings unless the adjudication of the claim1. resulted in a decision that was ontrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C„.§ 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
..
doubt.5’ See. Renicoy. Lett, 559 U.S. 766, 773* (2010) (internal citations omitted); see also
Laidenas v. Stephens, 820 F.3d 197. 201-02 (^5th Cir. 2016) (“Federal review under thx AEDPA
' !
•
is theiefore Highly deferential: The question is not whether we, in our independent judgment,
believe that the s(ate court reached the wrong result. Rather, \ye ask only whether the state court’s
7

judgment was so obviously incorrect as to be an. objectively unreasonable resolution of the
claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to a

3

/3*~

Case: 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 4 of 8

presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
VI. Discussion and Analysis
Rhodes’ federal habeas petition should be denied because he does not have a protected
liberty interest in his accrued or forfeited good conduct time. The primary consideration in this
case is whether Rhodes has stated or presented the denial of a constitutionally protected liberty
t

interest, ‘federaf habeas relief cannot be had ‘absent the allegation by a plaintiff that he or she
has. been deprived of some right secured to him or her by the United States Constitution or the laws
of the United States.’” Maichi v. Thaler, 211 F.3d 953, 957 (5th Cir. 2000) (quoting Orellana v.
■ I

\

Kyle, 65 F.'(3d 29, 31 (5th Cir. 1995)).
The procedural protections of the due process clause are triggered only when there has
been a deprivation of life, liberty, or property; because neither Petitioner’s life nor property
interests are at stake—particularly because his chief complaint is that his due process rights were
violated through the forfeiture of good-conduct credits—the pertinent question here is “whether
i

■

he'Jad a liberty interest that the prison action implicated or infringed.” Toney v. Owens, 779 F.3d
-

?

'■

330, 336 (5th Cir. 2015); Richardson v. Joslin, 501 F.3d 415, 418-19 (5th Cir. 2007). The Fifth
.*« .

CifcyiiihiasihelrFtfiht'ia-variety of prison.- administrative decisions do not create constitutionally
'■

.

}\r

‘ " ;

protected liberty interests. For example, punishment consisting of placement in administrative
f<

(

t

’

*

segregation or the loss of the opportunity to earn good time is not enough to trigger due process
protections. ‘See^Luken v. Scott, 71 F.3d 192, 193 (5th Cir. 1995).
■#.

Rhodes complains about the forfeiture of over sixteen years of accrued good conduct time
after he committed a new offense and his parole was subsequently revoked. Any loss of good
f

time credit serves only to affect Rhodes’ possible release on parole—insofar as Texas law provides

4

‘Case; 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 5 of 8

that the sole purpose of good-time credits is to accelerate eligibility for release on parole or
mandatory supervision. See Tex. Gov. Code § 498.003(a). The Fifth Circuit has expressly held
that there is no constitutional right to release on parole in the state of Texas. See Williams v.
Dretke, 306 F. App’x 164, 166 (5th Cir. 2009) (“Texas prisoners have ‘no constitutional
expectancy of parole’ and, thus, any effect that the punishment had on Williams’ s parole eligibility
could not support a constitutional claim.”); Creel v. Keene, 928 F.2d 707, 708-09 (5th Cir. 1991);
Allison v. Kyle, 66 F.3d 71, 74 (5th Cir. 1995).
Similarly, the United States Constitution does not guarantee a prisoner credit for good
conduct time. See Madison v. Parker, 104 F.3d 765, 768 (5th Cir. 1997) (“The Constitution does
not guarantee good time credit for satisfactory behavior while in prison.”) (citing Wolff v.
McDonnell, 418 U.S. 539, 557 (1974)). Further, there is no constitutionally protected liberty
interest in the restoration of good conduct time. See Hallmark v. Johnson, 118 F.3d 1073, 107980 (5th Cir. 1997) (“Since 1977, Texas law has provided that good conduct time credits are ‘a
privilege and not a right.’”) (emphasis added).
As the Respondent explains, under Texas law, good conduct credits may be forfeited__
either by violating TDCJ’s rules while in its custody or by violating the guidelines of a conditional
release program such as parole or mandatory supervision. See Tex. Gov’t Code Ann. § 498.004(b)
(2017) (“On the revocation of parole or mandatory supervision of an inmate, the inmate forfeits
ail good conduct time previously accrued. On return to the institutional division[,j the inmate may
accrue new good conduct time for subsequent time served in the division. The department may
not restore good conduct time forfeited on a revocation.”) (emphasis supplied); see also
Norwood v. Thaler, 2010 WL 380891 *7 (N.D. Tex. 2010) (“The language of the Texas statute

5

Is,

‘Case: 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 6 of 8

regarding the non restoration of good-time credit is mandatory and does not create a liberty interest
in good-time credits forfeited upon revocation of parole.”).
In other words, as a matter'of federal law, prisoners do not have a protected, constitutional
liberty interest in forfeited good-conduct time credits. See Cook v. Cockrell, 2003 WL 21649973
*2 (N.D. lex. 2003) ("However, it is well-established that, as a matter of federal due process,
Texas inmates have no constitutionally protected right to restoration of any forfeited time credits
following revocation of parole or to a sentence reduction based on forfeited credits.’’).
Here, Rhodes was paroled in 2015 and then committed a new felony. His parole was
revoked, and under the applicable statute, his forfeited good-conduct time cannot be restored.
Moreover, regardless of any state law, Rhodes has no constitutional right to the restoration of his
good-conduct credits or the release onto paiole. Accordingly, Rhodes’ reliance on Texas Chapter
375—which he attached and marked as Exhibit A—is misplaced.
The question before this Court is only whether Rhodes has presented the denial of a
constitutional right; he has not because he has no protected liberty interest in accrued or forfeited
good-conduct credits. See Savage v. Quartennan, 2007 WL 2870985 *7 (S.D. Tex. 2007) (‘'Even
if good-time credits are earned, they may be forfeited under certain circumstances and there is no
rigid, let alone, an automatic right, to reinstatement of these credits.”).
Likewise, Rhodes claim that the forfeiture of his good-conduct time constitutes a double
jeopardy violation is wholly without merit. It is well-settled that the forfeiture of good-conduct
credit does not extend a prisoner’s sentence beyond the original term. See Preston v. Thaler, 2012
WL 2026329 *6 (S.D. Tex. 2012) (“Because good time credit applies only to an inmate’s eligibility
for parole or mandatory supervision and not the length of his sentence, petitioner has no basis for

6

X.

/ (pCly

' Case: 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 7 of 8

challenging the forfeiture of good time credit on double jeopardy grounds.”); see also Morrison v.
Johnson, 106 F.3d 127, 129 n. 1 (5th Cir. 1997). This claim is without merit.
As it stands, Rhodes has not identified a constitutional violation. He has no protected
liberty interest in any forfeited good-conduct time. Moreover, he has not shown that the state
court’s adjudication of this claim on his state habeas application was unreasonable or contrary to
i

clearly established federal.law. See 28 U.S.C. § 2254(d). Rhodes’ federal habeas petition should
be denied.

'

'

-

.-

VII. Certificate of Appealability
An appeal may not be taken to the court of appeals from a final order in a habeas corpus 1
proceeding unless a circuit justice or judge issues a certificate of appealability. 28 U.S.C.
§2253(c)(l)(A). A district court, may deny a certificate of appealability sua sponte because the
district court that denies a petitioner relief is in the best position to determine whether the petitioner
has 'made a substantial showing of a denial of a constitutional right on the issues before that court.
Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir. 2000).
To obtain a certificate of appealability, a, petitioner must make the same showing as was
required for a certificate of probable cause. Else v. Johnson, 104 F.3d 82, 83 (5th Cir. 1997). The
-qf^dfff&rene&^s -that the^district court, in;granm^ a Certificate oTappealability, must specify, the
issues to be appealed. Muniz v. Johnson, 114 F.3d 43, 45 (5th Cir. 1997).
The prerequisite for either a certificate of probable cause or a certificate of appealability is
a substantial showing that the petitioner has been denied a federal right. Newby v. Johnson, 81 F.3d
567, 569 (5th Cir. 1996); James v. Cain, 50 F.3d 1327, 1330 (5th Cir. 1995). To do this, he must
demonstrate that the issues are debatable among jurists of reason, that a court could resolve the

1

17^

' Case: 6:18-cv-00173-RAS-JDL

Document #: 26-1

Date Filed: 03/10/2020

Page 8 of 8

issues in a different manner, or that the questions are adequate to deserve encouragement to
proceed further. Id.
In the present case, Petitioner has not shown, nor does it appear from the record, that the
issues he presents are debatable among jurists of reason, that a court could resolve the-issues i
in a
different manner, or that the questions presented are adequate to deserve encouragement to proceed
further. For these reasons, he is not entitled to a certificate of appealability.
RECOMMENDATION

'

;

For the foregoing reasons, it is recommended that the above-styled application for the writ
of habeas corpus be dismissed with prejudice. It is further recommended that the Petitioner be
denied a certificate of appealability sua sponte.
Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may

'

serve and file written objections to the findings and recommendations contained in the Report.
’ A party’s failure to File written objections to the findings, conclusions, and
recommendations contained in this Report within fourteen days after being served with

a copy.

shall bar that party from de novo review by the District Judge of those findings, conclusions, and
recommendations and, except on grounds of plain error, from appellate review of uriobjected-to
factual' findings-and 'legal- conclusions 'accepted-ana' Fdoptea o'y ffirffistnef cbmrDSugtass v."
United Sens. Auto Ass’n., 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc),'superseded by
other grounds. 28 U.S.C. § 636(b)(1) (extending the rime to file objections from

statute on

ten to fourteen.

days).

So ORDERED and SIGNED this 10th day of March, 2020.

8

UNITED STAIRS MAGISTRATE JUDGE

/fa.

Ch. 347

65th LEGISLATURE—REGULAR SESSION

Sec. 3. Title 108, Revised Civil Statutes of Texas, 1925, as amended
is amended by adding36 Article 6181—1 to read as follows:
“Art. 6181—1. Inmate classification and good conduct time
“Section 1. For the purpose of this Article:
“(1) ‘Department’ means the Texas Department.of Corrections.
“(2) ‘Director’ means the Director of the Texas Department of Cor­
rections.
“(3) ‘Inmate’ means a person confined by order of a court in the Texas
Department of Corrections, whether he is actually confined in the insti­
tution or is under the supervision or custody of the Board of Pardons and
Paroles,
“(4) ‘Term’ means the maximum term of confinement in the Texas
Department of Corrections stated in the sentence of the convicting court.
When two or more sentences are to be served consecutively and not con­
currently, the aggregate of the several terms shall be considered the
term for purposes of this Article. When two or more sentences are to
run concurrently, the term with the longest maximum confinement will
be considered the term for the purposes of this Article.
“Sec. 2. The department shall classify all inmates as soon as prac­
ticable upon their arrival at the department and shall reclassify inmates
as circumstances may warrant. All inmates shall be classified according
to their conduct, obedience, industry, and prior criminal history. The
director shall maintain a record on each inmate showing all classifica­
tions and reclassifications with dates and reasons therefor.
“Sec. 3. (a) Inmates shall accrue good conduct time based upon
their classification as follows:
“(1) 20 days for each 30 days actually served while the inmate is
classified as a Class I inmate;
“(2) 10 days for each 30 days actually served while the inmate is
classified as a Class II inmate; and
“(3) 10 additional days for each 30 days actually served if the inmate
is a trusty.
“(b) No good conduct time shall accrue during any period the inmate
is classified as a Class III inmate or is on parole or under mandatory
supervision.
“Sec. 4. Good conduct time applies only to eligibility for parole or
mandatory supervision as provided in Section 15, Article 42.12, Code of
Criminal Procedure, 1965, as amended, and shall not otherwise affect the
inmate’s term. Good conduct time is a privilege and not a right. Conse­
quently, if during the actual term of imprisonment in the department,
an inmate commits an offense or violates a rule of the department, all
or any part of his accrued good conduct time may be forfeited by the
director. The director may, however, in his discretion, restore good con­
duct time forfeited under such circumstances subject to rules and policies
to be promulgated by the department. Upon revocation of parole or man­
datory supervision, the inmate lose3 all good conduct time previously
accrued, but upon return to the department may accrue new good con­
duct time for subsequent time served in the department.
“Sec. 5. If the release of an inmate falls upon a Saturday, Sunday,
or legal holiday, the inmate may, at the discretion of the director, be re­
leased on the preceding workday.’’
35. Vernon's Ann.Civ.St. art. G1S1—I.

932

3~l ou

a

68th LEGISLATURE-regular SESSION

Ch. 375

cc»rCHAPTER 375
. S. B. No. 640
• AN ACT
relating to credit

£°r good

conduct

time
prison e r.
reduction
1 M J. sentence ' and to the
duty of sheriffs" and of•
the director of‘ the Texas’
Department of Corrections; amending
Section 3,’
Article 6181-1, Revised Statutes.
toward

BE IT ENACTED

BY THE LEGISLATURE OF THE STATE
OE TEXAS:

SECTION 1.

Section 3, Article 6181-1,
Revised Statutes, ls
amended^to read as’follows:
"Section 3.
based

(a)

inmates

uppn their classification
"(1)

20

days

shall

accrue

good

conduct

time

as follows;

for

each 30 days actually
served while the
inmate is classified
as a Class I inmate;
"(2) . 10,days for each 30
days actually
served while the
inmate is classified
as. a Class II inmate; and
"(3) not less than 10
il2XJ!!eE£-«!an_25 [18] additional
days^
__ determined by
for each 30 days actually
served if
the inmate is a
a trusty.
.

u

■

"(b)

No good conduct time s*hall.
accrue during
any period the
inmate is classified
33 a ciass HI inmate or is on
parole or under
mandatory supervision.
"(c)
jail

A_sheriff_whohas custody nf
conviction

of

,n

^prisoner imprisoned^ a
offense

Punishable
by
——5^1®__ department shall keep a
record of +hr
prisoner's behavior"-in *
jail.
If the risoner’is transform
to the
aaB5^5a^-«»eldlrector .h.,i
review the prisoner1*
jail record
38. Vernon's Ann.Civ.St,
art. 6181-1, § 3. .
imprisonment

Additions in text indicated by underling

2045

deletions by [fttriUooutt,]

rCh. 375
and

68th LEGISLATURE—REGULAR SESSION

may

award

good

conduct time,to the prisoner up to an

equal to that,which the prisoner could

have

accrued

during

such

period If incarcerated in the department..
"(d)

inmate.shall accrue good conduct time- in an amount '
determined by the director which shall not exceed 15 dava for each
30

days

An

actually

served.

fpt participation in an educational or

vocational program provided to inmates by the department.
SECTION 2.39 The change in the law made by this Act applies to
credit awarded for good conduct and. participation in programs
during

time served before, on, or after the effective date of this

Act.
•SECTION z:
crowded

The

condition .of

emergency

and

constitutional

an
rule

importance

of

the ' calendars
imperative
requiring

this
in

' public
bills

legislation

both

houses

necessity

and

the

create an
that

the

to be read on three several

days in each house be suspended, and this rule is hereby suspended,
and that this Act take effect and be in force from

and

after . its

passage, and it is so enacted.

Passed the Senate on March 28, 1983: Yeas 30, Nays 0; Senate concurred in House
N^s § one
% Soling - e H°US8' With arilend^nt- °n

mT25“ 1983:"Y^y ill',

Approved June 17,1983.
Effective ■■jtme 17j 1983.

/

23

